No. 20IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER Term 2020

TAVEON NIXON, a/k/a Kodak.,
Petitioner,

v.

)
)

)

UNITED STATES OF AMERICA, )
Respondent.
)

CERTIFICATE OF SERVICE

I, THOMAS RESTON WILSON, a member of the bar of the Fourth
Circuit Court of Appeals, hereby certify that on 15 SEPTEMBER 2020, one
copy of the Petition for Writ of Certiorari (complete with appendices), in the
above-entitled case was served on Assistant US Attorney JENNIFER MAY
PARKER, 150 Fayetteville Street, Suite 2100, Federal Building, Raleigh, NC
27601-1461, usance.ecfappeals@usdoj.gov, counsel for the Respondent herein,
and also on the Solicitor General of the United States, Room 5614, Department
of Justice, lOth Street and Constitution Avenue, Washington, D.C. 20530,
supremectbriefs@usdoj.gov, by first-class mail, postage pre-paid, and email. I
further certify that all parties required to be served have b n erved.
This the 15th of September, 2020.

T N WILSON, Esquire
Appointe CJA Counsel for TAVEON NIXON
Greene, Wilson & Crow P .A.
P.O. Box 1676
New Bern, NC 28563
twilson@greenewilson.com

